<html>
<title> - THE LATEST DEVELOPMENTS IN SAUDI ARABIA AND LEBANON</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


          THE LATEST DEVELOPMENTS IN SAUDI ARABIA AND LEBANON

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 29, 2017

                               __________

                           Serial No. 115-95

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
27-660 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b6a1be91b2a4a2a5b9b4bda1ffb2bebcff">[email&#160;protected]</a>                               
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
VACANT<greek-l>As of 10/24/17 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Elliott Abrams, senior fellow for Middle Eastern 
  studies, Council on Foreign Relations..........................     7
Paul Salem, Ph.D., vice president for policy analysis, research, 
  and programs, Middle East Institute............................    21
Tamara Cofman Wittes, Ph.D., senior fellow, Center for Middle 
  East Policy, The Brookings Institution.........................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Elliott Abrams: Prepared statement.................    10
Paul Salem, Ph.D.: Prepared statement............................    23
Tamara Cofman Wittes, Ph.D.: Prepared statement..................    36

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia:
  Prepared statement.............................................    70
  Material submitted for the record..............................    72

 
          THE LATEST DEVELOPMENTS IN SAUDI ARABIA AND LEBANON

                              ----------                              


                      WEDNESDAY, NOVEMBER 29, 2017

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Ranking Member Deutch for our 
opening statements, I will then recognize other members seeking 
recognition for 1 minute. We will then hear from our witnesses.
    Thank you so much for being with us today, and without 
objection, your prepared statements will be made a part of the 
record and members may have 5 days to insert statements and 
questions for the record subject to the length limitation in 
the rules.
    The chair now recognizes herself for as much time as she 
may consume.
    The one true constant in the Middle East has been the 
uncertainty and the instability of Lebanon since it gained its 
independence from France in the 1940s.
    Sectarian divisions and decades of mistrust among the 
predominant forces--Maronite Christians, Sunni Muslims, Shiite 
Muslims, as well as outside actors exerting undue influence on 
what should be internal matters--has ensured that Lebanon will 
remain in a constant state of uncertainty and instability.
    It was just 7 weeks ago today that this subcommittee 
convened a hearing on U.S. policy toward Lebanon. I cautioned 
then as I have for many years now that U.S. policy in Lebanon 
must be calibrated to scale back Iran and its proxy, 
Hezbollah's, influence while spurring much needed security, 
stability, and prosperity to the country.
    Then, on November 4th, Lebanon's prime minister departed 
for Saudi Arabia, where he announced his resignation from 
office.
    It is probably no coincidence that this surprise 
announcement came on the very day that Saudi Arabia had 
intercepted a Houthi-fired missile outside of the international 
airport in Riyadh.
    The Saudis blamed Iran and Hezbollah directly for providing 
the arms and support for the Houthis that allowed them to carry 
out this attack, calling it an act of war on Tehran's part.
    It should also be noted that Iran provided the missiles for 
the Houthis that were fired directly at U.S. ships off the 
coast of Yemen as well.
    These events also happened to coincide with the crackdown 
by Saudi's crown prince on that same day, which he says is an 
anti-corruption campaign. Others say it is a power grab, and 
the truth may be somewhere in the middle.
    Hariri, a Saudi citizen himself, stated in his resignation 
speech that Iran and Hezbollah had undermined Lebanon's 
sovereignty and he said that his life was in danger.
    And if anyone would know what Iran, Hezbollah, and other 
outside actors are capable of in Lebanon, it is Hariri. As we 
know, it was his father who was assassinated in 2005 in Beirut 
with both Hezbollah and Syria's Assad linked to that act of 
terror and it is no secret that Iran and Hezbollah's influence 
undermine the sovereignty of Lebanon.
    And, unfortunately, we are seeing an effort by Iran to 
expand this influence and its presence across the region, which 
has given its main rival, Saudi Arabia, justifiable reason for 
concern.
    Hariri has since returned to Lebanon this week, where he 
has put his plans to resign on hold but has demanded that 
Hezbollah cease its interference in regional conflicts.
    I would take that a step further and say that Hezbollah and 
Iran must not be legitimized nor allowed to interfere in 
domestic issues as well.
    I still believe the U.S. must remain cautious over ties 
between the terror group and the Lebanese Armed Forces--LAF--
and we should not put all of our support behind the LAF until 
those ties are severed completely.
    And while this committee has focused on Hezbollah and 
Iran's role in Lebanon, Syria, and Iraq, we haven't spent as 
much time focusing on Iran's latest strategic position in 
Yemen.
    The new Saudi crown prince has taken a series of drastic 
steps in recent weeks and has shown that he is perhaps more 
willing to engage Iran directly and he is seeing what would be 
a great cause for alarm in Saudi Arabia, for the Gulf and for 
the United States.
    Aside from Iran's continued support for the Houthis, there 
is increasing concern of a Hezbollah presence in Yemen. Imagine 
what that would mean for Iran's ability to interfere in 
internal matters of other countries and to put the entire 
region under threat.
    There is simply no way that Saudi Arabia would allow for 
Hezbollah to gain a presence in Yemen and then build up an 
arsenal presence on the Saudi border.
    Perhaps this is why we are seeing rumors of a willingness 
for Saudi and Israel to work together. Saudi now understands 
what it means to be living under constant and immediate threat 
from Hezbollah and Iran.
    But these recent developments should be a cause for concern 
for the U.S. and our partners. Lebanon is already hosting 1.5 
million or more Syrian refugees.
    Millions more would flee, likely making their way to Europe 
or elsewhere. It is also likely to spark yet another conflict 
as Iran continues its malign behavior and threatens its 
neighbors.
    So how should the United States respond? We must make it 
clear that Iran cannot continue its destabilizing activity and 
we must continue to put pressure on it and its proxy, 
Hezbollah.
    We must make it clear that we support a stable Lebanon, 
free from outside interference, free from Hezbollah's damaging 
behavior.
    We must also make it clear that Iran's support for the 
Houthis and its buildup of Hezbollah presence in Yemen are red 
lines that cannot be crossed. We must also continue to support 
the people of Yemen and the people of Lebanon.
    I believe that the U.S. and international partners need to 
have unfettered access to help deliver humanitarian assistance 
in Yemen.
    I welcome the announcement from Saudi Arabia and the Saudi-
led coalition that it is reopening ports and the international 
airport to allow the urgent flow of humanitarian aid to the 
people of Yemen.
    The Saudi-led coalition must play a role to allow 
humanitarian assistance into Yemen but the Houthi leadership 
must stop preventing the shipment and distribution of 
lifesaving aid without manipulation or diversion to those 
people in critical need, particularly in those residents in 
areas controlled by the Houthis' militias.
    I further call on all parties to work toward a cessation of 
hostilities and I urge the Houthi leadership to return to the 
peace process to halt any further escalation including cross-
border attacks in Saudi Arabia.
    We need to find a way to hold all parties accountable while 
working with those willing to work with us to curtail the 
violence and to bring stability to both Yemen and Lebanon free 
from outside interference.
    I am now pleased to yield to my friend, the ranking member 
of our subcommittee, Mr. Deutch of Florida.
    Mr. Deutch. Thanks, Madam Chairman, for convening today's 
important and timely hearing and thanks to our excellent panel 
of witnesses for being with us today.
    The past few weeks have been dizzying and today's hearing 
offers an opportunity to help understand the implications of 
the changes that we have seen in the region.
    At the 30,000-foot view, we are clearly seeing a 
continuation of the ongoing power struggle in the region 
between the Sunni Arab kingdom of Saudi Arabia as they seek to 
push back against the expansionism of the Persian Shiite 
Republic of Iran.
    But the Middle East is a complex region and simply painting 
everything as Iran versus Saudi Arabia is an oversimplification 
when there is a vast web of actors nations and interests at 
stake.
    I think it is worth reviewing a quick time line of the past 
few months that have brought us to this moment. In May, the 
United States reached a $110 billion arms deal with Saudi 
Arabia, and President Trump flew to Riyadh for his first 
foreign travel.
    Shortly after that, Saudi Arabia and its Gulf neighbors 
imposed a blockade on Qatar, presumably over its support for 
Hamas, the Muslim Brotherhood, and ties to Iran.
    Then Saudi Crown Prince Mohammed Bin Nayef was pushed in an 
unusually public way in favor of Deputy Crown Prince Mohammed 
Bin Salman--MBS--who will likely succeed the current King 
Salman.
    Now, the new crown prince then launched an unprecedented 
crackdown on corruption, or a purge of political rivals, or 
both, in which princes, government ministers, and scores of 
officials were arrested including the commander of the Saudi 
National Guard and Prince Al-Waleed Bin Talal, the 
international investor worth $17 billion.
    That same day, Lebanon's Prime Minister Saad Hariri, a 
close ally of Saudi Arabia, resigned from Riyadh over Iranian 
meddling in this country and now, 3 weeks later, Hariri is 
actually back in Lebanon resuming his duties as prime minister.
    So the question for our witnesses is what is going on. I 
know we're all eager for you to help unpack this whirlwind of 
activity. I would like to just touch on a few of the issues 
that I see as crucial to today's discussion, though.
    The first is stability in Lebanon. When I was young, the 
capital of Lebanon, Beirut, was known as the Paris of the 
Middle East. Tragically, a long civil war, sectarian strife, 
and proxy conflicts have changed its image.
    Lebanon remains and important country, though, and we 
should work to maintain the delicate power sharing that exists 
between Sunni Muslims, Shiite Muslims, and Maronite Christians, 
particular at a time when Lebanon has accepted more refugees 
per capita than any country in the world, due to the war in 
neighboring Syria.
    Sadly, Iran has taken advantage of the chaos in Lebanon to 
exert its influence through its proxy, Shiite militia, 
Hezbollah. Over the past several years, Hezbollah has built up 
its military capacity and firmly entrenched itself in the 
Lebanese Government.
    In Hariri's resignation speech, he called Hezbollah the arm 
of Iran that has, and I quote, ``managed to impose a fait 
accompli in Lebanon using the force of its weapons.''
    Hezbollah's capabilities now rival those of the national 
army, the Lebanese Armed Forces. And it is worth repeating when 
I said in this committee last month a legitimate Lebanese 
Government cannot function effectively when it is in a constant 
power struggle to govern with a nonstate actor.
    Hezbollah is an Iranian-backed terrorist organization 
responsible for attacks around the globe and we should all be 
interested in marginalizing their influence.
    The second issue is Saudi stability. Our relationship with 
Saudi Arabia is vital to the Middle East as strategic partners 
who share common interests.
    But we have to be honest in assessing where those interests 
diverge. While the new crown prince has stated his commitment 
to reforms, progress on human rights has been slow and 
unacceptable practices against minority groups and women remain 
national policy.
    And I am worried that the current administration's sole 
focus on the strategic relationship while ignoring other 
aspects does not help provide full American leadership on 
issues vital to the United States like human rights in the 
broader region.
    This administration's perceived carte blanche support for 
Saudi Arabia has empowered them to take additional steps like 
the public split from Qatar.
    And while Qatar's behavior has no doubt been problematic, 
and we need to push back against harboring terrorists, Al 
Jazeera's biased coverage, and their close ties to Iran.
    I am concerned that this crisis is a distraction from 
precisely those efforts needed to combat Iran and lead the 
fight against terrorism.
    Similarly, the war in Yemen is both a distraction from 
larger challenges and a horrific human disaster. The war has 
killed more than 10,000 civilians. Twenty million are in need 
of humanitarian support.
    Three million have fled their homes and the country is now 
facing the fastest-growing cholera epidemic in history with 
nearly 1 million cases recorded.
    The third key issue is the need to push back against Iran, 
and while this administration continues to talk tough against 
Iran, I am concerned that our policies on the ground paint a 
different picture, particularly in Syria where we are allowing 
Iran, Iran's client Assad, and its proxy Hezbollah to assert 
greater control over the future of the country.
    The de-escalation zones that the administration negotiated 
with Russia have allowed Iran and its proxies to essentially 
set up permanent forward bases, operating across from Israel's 
northern border.
    This should be deeply troubling to anyone interested in 
preventing another war between Israel and Hezbollah and 
safeguarding Israel's and Lebanon's future.
    So, clearly, a lot to discuss. I look forward to learning 
and getting the answers to all these questions from our 
witnesses, and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch, as 
always.
    And so pleased to yield to our members so they can make 
their opening statements and we will start with Mr. Chabot of 
Ohio.
    Mr. Chabot. Thank you very much, Madam Chair, and thank you 
for holding this very important hearing here this morning.
    We have a--clearly, a distinguished panel all looking 
forward to hearing, especially Mr. Abrams. Unfortunately, I 
have a markup which began at the same time as this hearing 
started in Judiciary and I have to chair the Small Business 
Committee starting at 11:00.
    But I can guarantee all the witnesses that I will read 
their testimony and thank you for giving it. I just, 
unfortunately, won't be here for much of it.
    Stability in the Middle East is in the best interests of 
our nation, obviously, and the world. That is why today's 
hearing is so timely.
    Prime Minister Hariri's pending resignation and a too-
powerful Hezbollah in Lebanon threaten to bring more chaos to a 
region that is already volatile.
    Further, political developments in Saudi Arabia raise 
questions about near and long-term stability in the Middle 
East, and then, of course, there is Iran.
    President Obama and his now famous deal with Iran and 
infamous side deals have allowed Tehran to meddle even more 
throughout the Middle East.
    This committee has, of course, paid very close attention to 
that as Tehran seizes opportunities to increase its influence, 
to develop its military capacity, and to strengthen its 
proxies, especially Hezbollah and Lebanon.
    Nothing threatens our allies in the region more than an 
unchecked Iran. So I, again, want to thank you, Madam Chair, 
for holding this important hearing and I yield back.
    Ms. Ros-Lehtinen. And we thank you very much for always 
making the time to come to our hearings in spite of other 
commitments. Thank you, Mr. Chabot.
    Mr. Boyle is recognized.
    Mr. Boyle. Thank you, Madam Chair, and thank you as well, 
Ranking Member Deutch, for holding this hearing. I look forward 
to this as an opportunity to learn specifically because the 
last few weeks in the kingdom have been among the most dramatic 
in decades.
    And I am of two minds in terms of what MBS is doing. One 
was forward in the New York Times piece by Friedman I think a 
few days ago, which is a fairly generous view that this is a 
modernization, a crackdown on corruption, a returning of Saudi 
Arabia back to a more moderate practice of Islam.
    However, that piece has also come in for some criticism 
that that is a naive or overly generous view. So this is really 
one of the most critical questions that we face, given the 
Saudi role in funding Wahabbism for the last several decades.
    If Saudi Arabia were to return to a pre-1979, more open 
practice of Islam, that certainly would have a dramatic effect 
not only on the kingdom but on the wider region in the world.
    And so as we go through the witness testimony today, I 
would be very interested in hearing your thoughts about what 
you think is behind what MBS is doing and what direction you 
see Saudi Arabia taking.
    Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you very much, my friend.
    And now, I don't know if any of our Republican members 
would like to be--we will go to Mr. Lieu.
    Mr. Lieu. Thank you. One of the issues I am interested in 
hearing about today is Jared Kushner's role in U.S. policy 
toward Saudi Arabia.
    I am concerned that he has no idea what he is doing. He has 
no foreign policy experience and zero foreign policy 
credentials.
    I am equally concerned he has a massive conflict of 
interest. Earlier this year, media reports that Jared Kushner 
companies--the Kushner companies sought a $500 million cash 
infusion for the troubled 666 Building in New York.
    From the ex Qatari prime minister that didn't work out and 
then Saudi Arabia blockaded Qatar. Did Jared Kushner give them 
the green light?
    Last month, Jared Kushner took an unannounced trip to Saudi 
Arabia. Did he ask those Saudi Arabia officials for a cash 
infusion for the 666 Building?
    We need to know if Jared Kushner is working on behalf of 
the American people or is he working for himself and his 
family?
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Lieu.
    Ms. Frankel of Florida.
    Ms. Frankel. Thank you, Madam Chair, and thank you for this 
hearing to you and the ranking member.
    I look forward to the testimony here. I know there are a 
lot of scary things going on in the world, including right here 
in the United States of America, where we are witnessing a 
depletion of State Department personnel and resources, which in 
the opinion of many is a threat to our own national security 
because we are failing to use the tools of diplomacy and 
development, and I am interested in your opinion on that 
subject.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you, my friend.
    Any other members wish to be recognized? Seeing no other 
signs, I would like to introduce our panelists.
    First, I am delighted to welcome back an old friend, Mr. 
Elliott Abrams, senior fellow for Middle Eastern studies at the 
Council on Foreign Relations.
    Prior to holding this position, Mr. Abrams served in 
various roles for previous U.S. administrations including 
Deputy Assistant to the President, Deputy National Security 
Advisor for Global Democracy Strategy, Assistant Secretary of 
State for International Organization Affairs, and Assistant 
Secretary of State for Human Rights and Humanitarian Affairs. 
Wow.
    Thank you for your service. We look forward to your 
testimony.
    And next, I am pleased to welcome Dr. Paul Salem--Salem? 
What--Salem is good? Okay. I don't--I don't know which one is 
correct, sorry--who serves as the senior vice president for 
policy research and programs at the Middle East Institute.
    Prior to joining the Middle East Institute, Dr. Salem was 
the founding director of the Carnegie Middle East Center in 
Beirut. He served in various other capacities, focusing on 
Lebanon.
    Thank you for being with us today. Thank you, sir.
    And finally, we welcome back our good friend, Dr. Tamara 
Cofman Wittes, senior fellow in the Center for Middle East 
Policy at Brookings.
    Previously, Dr. Wittes served as Deputy Assistant Secretary 
of State for Near Eastern Affairs. She also served as a Middle 
East specialist at the U.S. Institute of Peace and as director 
of programs at the Middle East Institute.
    We look forward to hearing your testimony. Welcome back.
    And we will begin with you, Mr. Abrams.

 STATEMENT OF THE HONORABLE ELLIOTT ABRAMS, SENIOR FELLOW FOR 
      MIDDLE EASTERN STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Abrams. Thank you, Madam Chairman and members of the 
subcommittee. I've got material here for about five hearings.
    Let me start with Saudi Arabia. I will try to answer some 
of the questions--what's going on. I think that what the crown 
prince is doing is reacting to several crises that face the 
kingdom.
    The first is economic--a very young and fast-growing 
population, huge decline in oil prices, the old economic model 
that is going to collapse. The state just couldn't throw off 
enough revenue to support the population and the government.
    So some way had to be found--has to be found to employ all 
of these young people, men and women, and make the economy more 
productive and less oil dependent and that is the goal of his 
plan, Saudi 2030.
    Second challenge is governance, moving from the old model 
where you go from one very elderly brother to another. Any 
event or passage of time is going to render that generation out 
of the picture.
    And the third challenge is the challenge of Iran, and as 
the Saudis see it, there is a nightmare here, being sandwiched 
between an Iranian-controlled Iraq and an Iranian-controlled 
Yemen, with growing Iranian power in Lebanon, growing Iranian 
power in Syria, and we now see some subversion in the Gulf 
States as well.
    So they've seen a decade of Iranian advances. They believe 
they see American reluctance to halt those advances and thus, I 
think, their more assertive foreign policy.
    So I think if you ask the crown prince he would say he is 
reacting rather than acting, and I think that basically we 
should very much hope that these plans succeed.
    But let me turn to Lebanon. Obviously, I'd be happy to go 
back to that in the Q and A. We have seen in the last decade a 
very significant increase in the power of Hezbollah in Lebanon 
and outside Lebanon.
    Their realm of operations now includes a lot of the Middle 
East--thousands of fighters in Syria, trainers to Iraq, backing 
the rebels in Yemen, organizing a battalion of militants from 
Afghanistan.
    So now Iran has a foreign legion. In addition to the Quds 
Force, it has Hezbollah. And I say that in part because I have 
heard people say the Saudis are creating a crisis in Lebanon 
and I don't think that is right. I think Iran and Hezbollah 
have created this crisis in Lebanon and, more broadly, in the 
region, and it raises some real questions for us about our 
policy toward Lebanon.
    What the Saudis are asking for in Lebanon, which is for 
Hezbollah to stop acting as if it were completely independent 
of the state, acting on behalf of Iran, refusing to allow the 
state to have sovereignty within the borders, these are 
actually the demands of U.N. Security Council Resolution 1701 
that ended the last war between Hezbollah and Israel.
    It called for the extension of control of the Government of 
Lebanon over all Lebanese territory, full sovereignty, no 
weapons without the consent of the government, disarmament of 
all armed groups in Lebanon.
    That--that is 1701. So when--that Saudi policy that is also 
American policy. That is also what the U.N. Security Council 
called for.
    Hezbollah is creating, I think, enormous dangers with these 
actions including the increasing danger of another 
confrontation with Israel.
    In the remaining time I'd just like to raise the question 
of aid to the LAF--Lebanese Armed Forces--because I wonder if--
you know, we have given them over $1 billion and the most 
recent year's amount was I think FY 2017 $123 million--I wonder 
what we are getting for that money.
    It seems to me we are financing a model that we know is 
failing, a model in which Iran is serving increasingly as 
foreign--Hezbollah is serving as the Foreign Legion of Iran.
    I am not suggesting today that we cut off all of that aid 
but I do think it is worth asking. I believe it is the fourth 
or fifth largest recipient of American military assistance.
    If we are trying to strengthen Lebanon's independence we 
are failing. If we are trying to limit Hezbollah's power, we 
are failing. If we are trying to eliminate the degree to which 
Hezbollah serves Iran, we are failing.
    If we are trying to strengthen the Sunni or Druze or 
Christian influence inside Lebanon against Hezbollah, we are 
failing. So should we continue with this policy of significant 
financial support for the LAF when it seems not at all to be 
working?
    That is why I think this committee and others need to 
reassess those expenditures.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Abrams follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Mr. Abrams.
    Dr. Salem.

   STATEMENT OF PAUL SALEM, PH.D., VICE PRESIDENT FOR POLICY 
    ANALYSIS, RESEARCH, AND PROGRAMS, MIDDLE EAST INSTITUTE

    Mr. Salem. Madam Chairman, Ranking Member Deutch----
    Ms. Ros-Lehtinen. Punch that button.
    Mr. Salem. Madam Chair, Ranking Member Deutch, 
distinguished members of the subcommittee, thank you for the 
opportunity to testify.
    My opening statement will be mainly on Lebanon but I would 
be happy to share my views on Saudi and Iran in the discussion.
    Lebanon occupies a strategic position on the eastern 
Mediterranean and as Deputy Assistant Secretary of State 
Michael Ratney said in this venue last month, a stable 
pluralist prosperous Lebanon is in the U.S. national interest.
    Lebanon has been an effective ally on the war on ISIS and 
al-Qaeda, defeating and expelling both in August. The country 
hosts over 1 million Syrian refugees.
    It maintains a society of pluralism, openness, and 
democracy in a troubled region, and the army, along with U.N. 
multinational forces, have kept the peace across the critical 
Lebanon-Israel border for the past 11 years.
    But Lebanon has also been a very contested space between a 
pro-Iranian pro-Assad coalition that now includes Russia and a 
pro-Arab pro-Western coalition.
    If allies give up on Lebanon, it will fall fully into Iran, 
Syria, and Russia's sway, and if tensions are pushed too high, 
we risk having another collapsed state in a region which 
already has too many.
    It is a long-term commitment, in my view, not one that can 
be won overnight nor one that should be abandoned in 
frustration. Many parties and leaders in Lebanon including Saad 
Hariri have been struggling in this contest for many years.
    Saad's father, Rafic, was assassinated in 2005 along with 
numerous others for doing just that. But these leaders have not 
and will not give up and they deserve support and encouragement 
for struggling to rebuild national sovereignty under very 
difficult conditions.
    Both coalitions share power in Parliament and government. 
Iran and Syria have built a massive armed nonstate actor in 
Hezbollah, starting from the days when Lebanon was a failed 
state.
    But the Lebanese have also maintained an inclusive 
democratic nation-state and with American help have built an 
effective national army and internal security force.
    Although successive governments have insisted on a policy 
of noninterference in regional affairs, Hezbollah has violated 
that principle since 2012 and become militarily engaged in 
Syria as well as in Iraq and in Yemen.
    Hezbollah's involvement in Yemen is what mainly sparked the 
latest crisis with Saudi Arabia, particularly its apparent 
assistance in delivering and helping militants launch missiles 
into Saudi Arabia, including the capital, Riyadh.
    Obviously, this is completely unacceptable to Saudi Arabia 
and it is fully understandable that Riyadh could not 
countenance that an ally of theirs would head a government that 
includes a party lobbing missiles on their own capital.
    Hariri's resignation was perhaps a necessary signal, a 
positive shock, as he himself put it, that the Lebanese 
Government could not continue with business as usual.
    Hariri is now back in Lebanon. He has put his resignation 
on hold until he receives guarantees that Hezbollah will cease 
its activities against ``friendly Arab governments.''
    If Hezbollah ceases its involvement in Yemen, this latest 
Lebanon crisis might subside. Some signs from Beirut and 
regional capitals indicate that that might be in the works.
    But the challenge of Hezbollah is a large and long-term 
one. It might be pulling back from limited engagements in Yemen 
and Iraq. We don't know yet. But its sizeable presence in Syria 
is part of the challenge of dealing with the tens of thousands 
of Iranian proxies there.
    Making sure all proxy forces leave Syria as part of a final 
settlement should be a primary objective for the U.S. and other 
regional partners in the next phase of contest and diplomacy 
over Syria.
    In Lebanon, as you know, Hezbollah has both a political and 
military presence. Politically, it is a principal elected 
representative of the Shiite population. Militarily, it has 
been armed by Iran to go head to head with Israel.
    An attempt to fight Hezbollah internally would likely lead 
to a devastating and losing civil war and another Hezbollah-
Israel war would cause much harm in both countries and Iran 
would be around to rearm Hezbollah immediately afterward.
    In the short term, the goal should be to withdraw Hezbollah 
from regional conflict zones, maintain peace across the 
Lebanon-Israel border and seek to reduce Hezbollah's influence 
on the Lebanese state.
    The long-term resolution of the challenge of Hezbollah will 
depend probably on wider regional developments such as a 
reckoning militarily or diplomatically with Iran or a 
breakthrough in Israeli-Palestinian or Israeli-Arab peace, an 
issue that Hezbollah and other armed non-state actors thrive 
on.
    I address a number of other issues in my written testimony, 
but I thank you for your attention and look forward to 
questions.
    [The prepared statement of Mr. Salem follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, sir.
    Dr. Wittes. Thank you.

STATEMENT OF TAMARA COFMAN WITTES, PH.D., SENIOR FELLOW, CENTER 
       FOR MIDDLE EAST POLICY, THE BROOKINGS INSTITUTION

    Ms. Wittes. Thank you, Madam Chairman, Ranking Member 
Deutch, members of the subcommittee. I appreciate the chance to 
share my views with you.
    ISIS is on the run militarily, and the JCPOA has, for now, 
constrained and rolled back Iran's nuclear program, and it is 
these gains that allow America and its partners to turn our 
attention to Iran's relentless effort, directly and through 
local proxies, to subvert other sovereign states in the region 
and gain influence over their politics.
    For Saudi Arabia, this has long been the dominant regional 
security concern and it is now motivating dramatic moves in 
Saudi foreign policy.
    Constraining and reversing this expansion of Iranian 
influence in the region is a worthy and important goal for the 
U.S. and it is a goal that, for the moment, unites most of 
America's regional partners.
    It is one that could bring others in the international 
community on board. Although our regional partners see a common 
threat, they have different priorities and that means American 
leadership is essential to bring them together.
    Building this coalition will require persistence, trust 
with our allies, resolution of regional conflicts, dialogue 
with a wide range of international partners--in other words, 
containing Iran will require adroit and assertive American 
diplomacy.
    Now, the swiftness and decisiveness of Saudi decision 
making has surprised many and raised some alarm. Saudi tactics 
and tone have changed from hedging bets between dialogue and 
confrontation with Tehran to going all in in a face off 
designed to unsettle Iran, raise its costs, and try to impose 
some red lines on its behavior.
    In certain areas, Saudis' policy has involved primarily 
soft power and it has brought noticeable gains such as the 
kingdom's concerted outreach to Shi'a politicians in Iraq.
    In other areas, like Yemen and now Lebanon, the approach 
has been more unilateral and more coercive and I think it 
reveals some limits to the kingdom's leverage and its capacity 
to shape events.
    The bottom line is that Saudi Arabia is more effective in 
regional affairs with carrots than with sticks, and this new 
propensity for all-out confrontation has already complicated 
some U.S. policy goals in the region.
    Most notably, the Saudi intervention in Yemen is now, at 
nearly 3 years old, both a military and humanitarian nightmare.
    It has mired the kingdom in an expensive quagmire, it has 
produced a horrific level of human suffering, and it has 
strengthened both al-Qaeda of the Arabian Peninsula and Iran.
    It is time for this war to end. Every day the war goes on, 
the humanitarian costs mount with little real impact on the 
outcome, which will inevitably involve intricate political 
compromises and power sharing amongst Yemen's rival factions.
    In the domestic arena, Mohammed Bin Salman, the crown 
prince, is now dancing on the edge of a knife. Some of his 
political and economic goals are very worthy. Some seem 
contradictory.
    For example, it is hard to inspire the confidence of 
foreign investors while casting doubt on the rule of law by 
arresting hundreds on vague charges with no public evidence or 
judicial process.
    My own view is that top-down reform without meaningful 
improvements in government accountability, transparency and 
respect for human rights will not ultimately succeed in winning 
the support either of foreign investors or, more importantly, 
the kingdom's citizens.
    The missile attack on the Riyadh airport last month was a 
wake-up call, but Saudi worries about the missile threat from 
Yemen have been growing steadily.
    The kingdom faces the possibility that Iran and Hezbollah 
could create in northern Yemen a duplication of the challenge 
Israel faces in southern Lebanon and that is an intolerable 
prospect for the kingdom, one they are prepared to take 
dramatic steps to forestall.
    I think it is possible that Hezbollah will agree to some 
concessions regarding its purported activities in Yemen in 
order to keep Hariri as prime minister in Lebanon.
    But an undeclared end to unacknowledged activity in Yemen 
is hard to see and it is hard to enforce. So I think we should 
expect to see continued tussles between Saudi Arabia and Iran 
over Lebanese politics.
    It is important to note that none of our regional allies 
want to see Lebanon destabilized or to become a front in a 
regional war, and American support for Lebanon is valuable in 
maintaining that stability.
    The U.S. should stay engaged to support democratic 
development there, push for parliamentary elections that are 
scheduled for next spring, and hope that one legacy of the 
Saudi pressure on Hariri is increased support for his coalition 
at the ballot box.
    Now, the United States can successfully build an 
international coalition to constrain and push back on Iran's 
destabilizing influence.
    Components of that effort would include diplomacy with 
Iraq, with Russia over Syria, pressure on Iran in the U.N. 
Security Council, intelligence cooperation with allies and 
persuading European and--European nations and China that Middle 
East stability is a public good that Iranian intervention 
degrades.
    But as with the effort that brought Iran to the nuclear 
table, ramping up this international pressure to a level that 
shifts Iranian behavior will require painstaking diplomatic 
work.
    The most important tool in the American policy toolbox to 
contain Iran and restore stability in the region is the tool 
that the current administration seems most committed to 
degrading--our diplomacy.
    Thank you.
    [The prepared statement of Ms. Wittes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much to all of our 
panelists.
    Mr. Abrams, I will start with you. You have written that 
successfully undermining Hezbollah's grip on Lebanon will 
require diplomatic and economic pressure from the United States 
and our allies, especially France.
    European nations, as we have seen, have long been reluctant 
to designate the totality of Hezbollah as a terrorist 
organization.
    So what is it going to take for France and all the members 
of the EU to take a harder line on Hezbollah and what can the 
U.S. do to push everyone in the right direction?
    Mr. Abrams. As you know, Madam Chairman, the French have 
had, for obvious historic reasons, a special interest in 
Lebanon. There was a lot of cooperation between the U.S. and 
the French at the time that the Cedar Revolution rose up and 
the Syrians were finally forced to leave Lebanon.
    So I think we could start a process of talking to the 
French privately about exactly what you are proposing. How do 
we move ahead here?
    They would have to bring the Europeans along. But I think 
there is a real good chance that--because the Europeans 
recognize the special French role that this would happen.
    I think Ms. Frankel is right in saying that we are, in many 
ways, weakening our diplomatic instruments. But I think the 
beginning of it is for us to adopt a policy that says we have a 
goal of weakening Hezbollah.
    Let us go to the French with that and say okay, what do we 
do in terms of military aid, in terms of economic aid, to put 
pressure on Lebanon not to say the current deal where Hezbollah 
gets to do whatever it wants anywhere in the Middle East is 
fine with us and we will keep paying.
    Ms. Ros-Lehtinen. Thank you very much.
    And to either Dr. Salem or Dr. Wittes--either one would 
like to answer in the interest of time--Saudi Arabia has 
accused Hezbollah of playing an increasing role in Yemen by 
allegedly helping to train, equip, and finance the Houthis and 
there are also concerns of a Hezbollah presence on the Saudi 
border.
    And in announcing his resignation, Hariri was particularly 
grieved by the presence and participation of Hezbollah and the 
IRGC in Yemen.
    So what does a Hezbollah presence in Yemen mean for Saudi 
Arabia? How does Hezbollah's assistance to the Houthis change 
the current situation on the ground and how do the U.S., the 
Saudis, and others work together to curb Iran's latest attempt 
to expand its presence?
    Thank you, sir.
    Mr. Salem. I think what concerns the Saudis most about 
Hezbollah and Iran's presence are the missiles that are being 
launched on Saudi Arabia and as my colleague said, I think the 
Saudis fear that there is a reproduction of the pattern that 
happened in Lebanon vis-a-vis Israel and I think that is 
probably accurate--that the Iranians have that ambition.
    As far as anyone knows, the Hezbollah presence in Yemen is 
limited to advisors, technicians, maybe missile experts and so 
on--very different than the thousands of fighters that they 
have in Syria, that they have rotated through Syria, and that 
have fought there. So the presence is limited.
    The Saudis are also concerned, as are many Lebanese, that 
Hassan Nasrallah, the leader of Hezbollah, for many, many 
months has championed the anti-Saudi cause publicly in all of 
his speeches and his media, and that is something that is also 
unacceptable to the Saudis.
    There is, obviously, general rejection of Iran's presence 
in Syria and Iraq, but for Saudi, Yemen is the urgent case; and 
I think if there were some de-escalation or some commitments 
whether public or behind the scenes--that could be something 
that could resolve this temporary Lebanese crisis.
    Ms. Ros-Lehtinen. Thank you so much.
    Did you want to add anything, Dr. Wittes?
    Ms. Wittes. Well, I will only add that although Hassan 
Nasrallah has denied that Hezbollah is engaged in Yemen or in 
supporting the Houthis, the U.S. military has intercepted 
shipments of weapons that seem to come from Iran and are 
destined for the Houthis in Yemen and there has been news 
reporting of Hezbollah fighters boasting about their engagement 
in Yemen.
    So it is something that they formally deny but the evidence 
is mounting.
    Ms. Ros-Lehtinen. Thank you so much to all three of you.
    Now I will yield to my friend, Mr. Deutch of Florida.
    Mr. Deutch. Thanks very much, Madam Chairman.
    Just to follow up, Dr. Salem, the last point about 
Hezbollah's presence in Lebanon, what--what happens to all of 
the now well-trained Hezbollah fighters after Syria?
    And Mr. Abrams referred to them as Iran's Foreign Legion. 
Where do they go and how disruptive will that be? Will they 
return home to be disruptive there?
    Mr. Salem. Well, Hezbollah has about 20,000 full time 
fighters, and about 50,000, 60,000 reservists. It has been 
rotating about 8,000 at any one time in the Syrian battlefield, 
as far as we can tell.
    They have lost from 1,000 to 2,000 people killed, 4,000 to 
5,000 at least wounded. So it is a heavy toll in terms of the 
fairly small community that they come from in Lebanon, but it 
is a very massive force.
    They have expanded: They have gained a lot of capacities 
and fighting skills and so on through their engagement in 
Syria.
    They still are deployed in Syria in those ratios so there 
isn't any massive sort of exit from there. Their presence 
apparently in Iraq and Yemen, while it is there it is not in 
massive numbers.
    This is part of an Iranian expeditionary force which 
probably numbers about 150,000, if you add Hezbollah numbers 
plus some of the Popular Mobilization Units in Iraq, which are 
very close to or answerable to the Quds forces and General 
Qasem Soleimani as well as Afghan and Pakistani and other 
fighters that have been brought to the fight, particularly in 
Syria.
    We are talking about an Iranian expeditionary force of 
around 150,000. Indeed, they are already causing a lot of 
trouble in the four arenas where they are.
    But it is a very troubling question for countries in the 
region, probably countries around the world: Where will Iran 
deploy these people if things settle in Iraq or settle in 
Syria?
    Mr. Deutch. Dr. Wittes, you--at the end of your testimony 
you said that the most important tool to contain Iran's ability 
is the same tool the President seems committed to destroying 
our diplomacy.
    Many members of this committee expressed our deep concern 
over the exodus of more than 100 senior Foreign Services 
officers from the State Department since January.
    It was particularly startling to learn that 60 percent of 
our career Ambassadors have left the department since the 
President took office.
    When you say that we need our European allies, we need 
others to understand the Middle East stability is a public 
good, how can we convince them of that when in our own public 
sphere--in our own Government we seem less inclined to want to 
play any role in international diplomacy?
    Ms. Wittes. I think that is a crucial question at the 
moment and I would say as well that President Trump's approach 
on U.S. involvement in implementation of the JCPOA has also 
raised a lot of questions amongst those same international 
partners that we would need to deal with the regional behavior 
of Iran.
    If they see the United States walking away from its JCPOA 
commitments, they are--they will at the very least question 
whether it is worthwhile cooperating with the U.S. on this 
dimension of Iranian behavior.
    But I think that the rhetoric about America first only 
takes us so far. The widespread nature of Iranian subversion 
and the variety of tools that they use are such that this is 
not something the United States can do alone.
    It is not something the United States and its regional 
partners can do alone. We need maximum leverage over this 
situation and that means that we need those who are 
economically reengaging right now with Iran to reconsider the 
consequences of those choices.
    Mr. Deutch. Mr. Abrams, you have lots of experience in 
government. Yesterday, when the Secretary of State defended--
attempted to defend the massive cuts to the State Department 
budget by effectively suggesting we won't need the personnel 
because the efforts of this administration will help to resolve 
so many of these crises that we face around the world, and yet 
here we are less than a day later and we are talking about 
150,000 Iranian-trained militias, soldiers.
    We don't know where they go next. It doesn't seem like the 
conflicts are being resolved and how do we--first of all, is 
there any--does that argument make any sense to you at all, and 
assuming that it does not, how do we help everyone in the 
administration understand that the challenges that we face 
require more than--more than one conversation with world 
leaders or one visit but actually ongoing diplomacy?
    Mr. Abrams. Are you trying to get me in trouble here on 
this? [Laughter.]
    Mr. Deutch. Indeed I am, Mr. Abrams.
    Mr. Abrams. Well, I didn't--I would have to say I think you 
could always, in an organization as large as the State 
Department cut 5 percent, maybe 10 percent, and there are 
efficiencies in any large organization.
    But the kind of cuts that we are hearing about--30 
percent--have had a devastating impact on morale. I think that 
is obvious and cannot be denied if you go over and visit the 
State Department.
    I don't know what to say except that I would think 
influential Members of Congress such as yourself might try to 
have these conversations with the Secretary of State and try to 
persuade him that there is an enormous amount of diplomatic 
work that needs to be done.
    It is not a one-man job. It is going to require people at 
the second and third and fourth and fifth level and Ambassadors 
in the field.
    Mr. Deutch. I appreciate that.
    I would also suggest, Mr. Abrams, that important figures 
like yourself with a relevant history might also have an 
important voice in all this, and I yield back.
    Ms. Ros-Lehtinen. That would be great. I am all for that.
    Mr. Donovan of New York is recognized.
    Mr. Donovan. Thank you, Madam Chair.
    Many of you spoke in your statements about Hezbollah and 
their activity. We know that it is a criminal enterprise, is 
financed through a lot of drug trade. They use the proceeds of 
that drug trade to buy weapons in Syria and a lot of the drugs 
that are being traded are sold in Europe and here in the United 
States.
    Anyone have any ideas? I mean, this is a twofold problem--
one, the drug crisis, secondly, that they are using the 
proceeds to buy weapons.
    And if you have any ideas if there is activities that the 
United States should be doing and aren't doing now that could 
help quash this activity both in the drug trade and the 
purchasing of weapons.
    When everyone looks at one another I see nobody wants to 
answer this question.
    Mr. Abrams. I would just say I think a lot of this drug 
trafficking takes place in Latin America--that is, Hezbollah 
drug trafficking.
    We are, I believe, doing a lot to try to stop it through 
DEA and through other parts of the U.S. Government. Whether it 
could be made much more effective, I don't know.
    But we would have to say that they are getting an enormous 
amount of money--in the hundreds of millions of dollars--from 
Iran and part of the problem here is that it is likely that, 
you know, if we turn off one spigot, the Iranians will just 
open another spigot just that much more because they are 
apparently so committed to the Hezbollah model.
    Mr. Salem. Yes, if I may--I mean, I second that view that I 
don't have much information about the drug activity and other 
criminal activity but I am aware that the U.S. and others are 
trying to interdict it.
    But I would second that view that Hezbollah essentially is 
an emanation of Iranian financial military ideological support. 
It is part of their sort of defense and security deployment, 
with a lot of support from the Assad regime in Syria. So I 
don't think that stopping one source will end the problem. It 
would just go in other directions.
    But I do want to comment on the issue of diplomacy and say 
effectively that, I mean, obviously, having less diplomats is a 
serious problem.
    I see the real problem is the lack of an overall strategy 
to address the problems that military and diplomatic tools 
could be used toward a broad strategy.
    To my mind--and I will just mention a few things--one is 
that the crisis that we are going through that includes 
empowerment of Iran has to do with the collapse of states and 
the outbreak of civil war.
    That is where Iran as well as ISIS and other sort of 
radical and terrorist groups can grow and thrive. We still have 
four ongoing collapsed state civil wars in the region. Ending 
those civil wars--and each one has very different conditions--
must be a very high priority for the U.S. and all regional 
players.
    We have talked about Yemen. We have talked about Syria. 
Iraq might be moving in the right direction; and we still have 
Libya lying out there.
    Secondly, in the approach toward Iran, I think a 
comprehensive strategy must have both more push back and more 
diplomacy.
    But the point is to get Iran to change its behavior, to 
change its policy, and neither are the costs being made high 
enough for Iran nor is there any sort of diplomatic or 
political offer on the table to say, ``If you want us to reduce 
the pressure, you have to abide by international law, do this, 
do that.''
    What we seem to be having now is sort of ``speak loudly and 
carry a small stick'' rather than ``speak softly and carry a 
big stick.''
    And in effect, in terms of push back, this administration 
has rolled back anti-Iranian support in Syria. It is basically, 
you know, stopped support for the Syrian opposition, possibly 
dropping support for the Kurds.
    Handing over Syria to a Russian-managed situation--that is 
not pushing back on Iran, nor is there any visible push back in 
Iraq, and Lebanon alone won't do it. The big arenas need to be 
addressed as well, and there needs to be engagement with Iran, 
with a lot of pressure at the same time.
    Mr. Donovan. Madam Chair--quickly, because my time is 
running out, I know Saudi Arabia spoke about extracting uranium 
recently as last month to promote or develop a nuclear power 
system.
    Is there any concern that at some point this will be 
upgraded to weapon-capacity uranium?
    Ms. Wittes. Congressman Donovan, I think that the question 
of nuclear proliferation in the Middle East is one that the 
U.S. Government and policy experts have focused on for a long 
time.
    I would say that if there were a risk of nuclear weapons in 
Saudi Arabia, it probably would not come from that kind of 
ground up program.
    Saudi would probably look to relationships with other 
nuclear powers, especially Pakistan, to get something off the 
shelf rather than developing it indigenously.
    So I think we do always have to pay attention to nuclear 
programs that have the capacity to create proliferation 
challenges.
    But I think that in the case of the kingdom what this is 
really about is a very swiftly escalating domestic energy 
demand and their desire to use more of their petroleum for 
world markets and revenue generation than for domestic 
consumption.
    Mr. Salem. But I would say that this concern about nuclear 
proliferation in the Middle East relates directly also to the 
nuclear deal with Iran--that despite its faults and 
limitations, other than the risk of what Iran will do, if the 
nuclear deal itself is dismantled or is no longer applicable, 
that will immediately spur countries like Turkey, Saudi Arabia, 
possibly Egypt and others, to acquire some kind of nuclear 
option, whether it is off-the-shelf or to build it themselves.
    So I think the whole nuclear deal is, obviously, a key 
component of what we are talking about.
    I think it is true that under the Obama administration the 
nuclear deal had some maybe unforeseen consequences. One, it 
gave Iran a sense of immunity that they could do things in 
other parts of the Middle East and the Obama administration 
wouldn't react.
    Secondly, I think when they no longer had the nuclear 
option as deterrent, that spurred them to do more in asymmetric 
warfare.
    It sort of created a bigger problem, that they wanted to 
assure their security through other means, and it also probably 
gave them some sense that they had more money to spend.
    But I think the solution is not to drop the nuclear deal 
but to engage in a wider push back and diplomacy with Iran, 
which could then add some sunset issues or missile clauses as 
well as pushing Iran to abide by international law.
    Mr. Donovan. I thank you, Madam Chair. My time has expired.
    Ms. Ros-Lehtinen. Thank you, Mr. Donovan. Good questions.
    Mr. Schneider of Illinois is recognized.
    Mr. Schneider. Thank you, Madam Chairman, and thank you 
again for having this hearing. Witnesses, thank you for your 
insight and comments today.
    Mr. Abrams, you noted you have enough material for five 
hearings. I have enough questions for at least those five 
hearings and so I will try to squeeze a little bit into these 5 
minutes.
    I am going to glance over these, but these are very 
important issues, you know, you all talked about Iran's 
regional goals and their multifaceted strategy within that 
region but in particular Hezbollah and their use of Hezbollah--
how they are using them particularly in Lebanon and Syria, but 
also around the region and we have talked a lot about that. I 
think we need to address that.
    I wish we could talk and maybe suggest for a future hearing 
about United Nations Security Council 1701, and I can't even 
use the word effectiveness on that but the fact that Hezbollah 
has 150,000 rockets, give or take--it doesn't matter what that 
margin of error is--threatening Israel and now Hezbollah and 
Iran using the same strategies you highlighted in Yemen is of 
grave concern.
    But what I really want to focus on in the few minutes I 
have is--Dr. Wittes, you used the term what's our maximum 
leverage and I think you have to think of the image of a lever. 
There are four aspects to that lever.
    There is the load--what are we trying to effect, what are 
we trying to move, what are our goals specifically. There is 
the beam, and by analogy the beam is what resources do we bring 
to this with U.S. resources but also our allies. The fulcrum--
where do you put the fulcrum, what opportunities there are to 
place and get the leverage we need to have.
    And the last piece--and this may be the most concerning in 
the context we have talked about the cuts at the State 
Department--is the effort. This isn't going to be one push and 
we are done.
    We are going to have to work the levers to get that maximum 
leverage over a period of time and how do we do that--how do we 
maintain that attention.
    So that is a brief introduction, using 2 minutes. I 
apologize. I will open it up to the panel and say help, where 
do we go from here.
    Ms. Wittes. Well, if I may--sorry, guys--Congressman 
Schneider, thank you. I think that is a wonderfully drawn out 
picture for us and I think part of the challenge that we face 
in getting grips on this problem is that we and our partners in 
the region share a sense of threat but we--but there are very 
divergent priorities amongst our partners.
    So for the Saudis, as we have discussed the missile threat 
from Yemen and Hezbollah's role there, is priority number one.
    For the Israelis, the threat that Hezbollah or the IRGC 
would be able to set up permanent bases near its border or to 
establish weapons factories that would further exacerbate the 
precision missile threat from Hezbollah onto Israel's civilian 
population, that is priority number one.
    But, you know, if you are--if you are talking about Egypt 
or Jordan or other American partners, you're going to have 
different priorities as well.
    This is where American leadership comes in is looking 
across the region, seeing how these pieces fit together and 
saying where--where do we begin to have the maximum effect.
    Now, we haven't talked a lot about Iraq or the slow wind 
down of the war in Syria so far in this hearing but it seems to 
me that Iraq and Syria are the place where we actually have 
maximum leverage.
    Not only because we still have forces on the ground--as 
Paul said, forces are not a strategy. We need a strategy that 
combines our tools, and I think that one of the--one of the 
most troubling signals that the current administration has sent 
with respect to the war in ISIS is its consistent message that 
it wants to get the military job done of taking territory back 
from ISIS and then he wants to get out and go home--where what 
we need to do is stay engaged in Syria in order to have 
leverage on a political settlement with the Russians and the 
Iranians.
    We need to not betray our allies who fought beside us so 
that our other allies stay on side and we need to look ahead in 
Iraq where yes, we have made a lot of progress. The Saudi 
outreach to Iraq is helpful there as well and they have 
elections next year and that matters very much.
    So, you know, I don't think of push back and diplomacy as 
opposing means. I think that diplomacy is actually a very 
important part of pushing back and I think that we need to 
start in Syria and Iraq.
    Mr. Schneider. Mr. Abrams?
    Mr. Abrams. I think we are all agreeing on this. To put it 
a different way, we are never going to win at the negotiating 
table what we have not won on the ground in Syria.
    This has been the problem, I think, in the years of 
Secretary Kerry's negotiations in Geneva. So push back is part 
of this but, you know, I am struck--we are talking about Iran's 
rise over the last 5 years. We are talking about what Hezbollah 
has been doing over the last few years.
    They pay no price, and one way of thinking about this is 
how and where could we impose a price on Iran and its proxies.
    Mr. Schneider. Right. I think that is a good point. There 
has been a lot of evidence of big gains for little loss for 
Iran in the area.
    Dr. Salem, anything you want to add?
    Mr. Salem. Well, no. I mean, I agree with my colleagues. 
Maybe I will say a couple things. On the question of what you 
gain from diplomacy if you haven't won on the ground, that is 
true; although in some cases you might be imposing a cost in 
one arena and you're trying to get a concession in something 
else.
    I think the end point that we would like to get to and we 
are not going to get to anytime soon--is an Iran that abides by 
international law. Now, that is extremely long term.
    If we get more practical, I think we do have a path forward 
in Iraq. It has been a rocky road but I think the defeat of 
ISIS by the central government, the rebuilding of much of the 
army, and the outreach by the Saudis as well creates conditions 
for a reasonable way forward. Iran will have influence but it 
won't dominate and won't dictate.
    In Yemen there is an Iran presence, it is quite minor 
still, and I think efforts to end the Yemeni civil war almost 
succeeded in Kuwait a few months ago. There is a lot going on 
behind the scenes.
    It is not an impossible conflict to negotiate an end to, 
and the Iranians don't dominate as they do in other arenas. So 
I think there is a way forward in Yemen. And there is certainly 
a way forward in Libya where Iran doesn't have a major 
presence.
    The real ``Chernobyl'' of the region is Syria. That is 
where Hezbollah reemerged from Lebanon to have a major 
deployment and from there to Iraq and Yemen, and that is a sort 
of a meltdown that is in a very bad place and that is going in 
the wrong direction, particularly with U.S. policy effectively 
leaning toward the Russian option and so on.
    The fight against ISIS went very well but there doesn't 
seem to be any long-term plan. So a practical approach might be 
to focus our efforts on finding a better resolution for Syria 
that would involve a settlement that doesn't include Assad but 
is workable and that leads to a pathway where Iranian influence 
can be reduced.
    Mr. Schneider. Thank you.
    I have far exceeded my time. If we had five before the 
questions, we are now at 10 hearings, going forward.
    Thank you very much.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Schneider.
    And I am very proud to yield to our good friend from 
Florida, Mr. Mast.
    Mr. Mast. Thank you, Chairwoman. I appreciate that.
    My line of questioning is certainly in the aim of 
historical understanding. I think Iran has done a very good job 
of being tactical and strategic in working toward long-term 
goals, and so I'd love to hear a few responses from you on 
where historical context might lead us.
    How long has Hezbollah been operating in Lebanon? Mr. 
Abrams, if you want to answer--Doctor, anyone.
    Mr. Abrams. I think the real turning point comes when the 
Syrian troops leave Lebanon because Syria dominated Lebanon and 
held in check a number of domestic forces, some democratic but 
also Hezbollah.
    Once the Syrian army was out, fairly quickly, I would say, 
Hezbollah became the dominant military force and they used that 
power to increasingly dominate the political structures of the 
country as well.
    So I would say, roughly, the first half of the previous 
decade.
    Mr. Salem. I would give you a bit more context. To go back 
to the 1980s when Hezbollah first started, obviously emanating 
from the Iranian Revolution, particularly in the aftermath in 
Lebanon of the '82 invasion and the removal of the PLO from 
Lebanon.
    The PLO used to dominate south Lebanon. And a key turning 
point there that is often missed is the 1983 withdrawal 
agreement, which the Lebanese and Israelis, under American 
auspices, negotiated and in which Israeli troops were to 
withdraw from Lebanon.
    This is something that the Syrians opposed extremely--you 
know, the Syrians opposed it effectively because they wanted 
any negotiations with Israel to be in tandem--Lebanon and Syria 
on one side and Israel on the other--so that they could get the 
occupied Golan back.
    They opposed the agreement. They scuttled the agreement 
and, moving forward, as the PLO had been removed, they backed 
Iran to arm and grow Hezbollah in Lebanon partly to serve 
Syrian interests.
    Syria controlled Lebanon all the way up to 2005 and I mean 
completely governed Lebanon effectively. And for them--for 
Syria--Hezbollah was a main tool to pressure Israel over issues 
relating to the Golan.
    For Iran, obviously, it was, first, an ideological issue, 
it was the first place they could export their Islamic 
revolution to and show what they could do; but on national 
security issues, since they considered themselves to be at war 
both with Israel and the United States, they created a kind of 
``aircraft carrier,'' which they parked north of Israel, which 
is Hezbollah, as an attack force or a deterrent.
    So over 25 years Syria helped Iran build this massive army 
at a time when there was no Lebanese say in any of it. The 
important turning point of 2005 is very significant and I would 
say a couple of things.
    I agree with Mr. Abrams that when Syria withdrew, Hezbollah 
stepped up and did its own dirty work itself rather than the 
Syrians doing the dirty work.
    But after 2005, it is fair to say that about half of the 
Lebanese parties, voters, leaders, its political system was now 
free.
    Not free not to be assassinated, but they were no longer 
under Syrian diktat or Hezbollah. They struggled. And that is 
what we have now.
    We have a semi-free country and a semi-occupied country 
struggling with a problem that was created by Syria and Iran 
and which, you know, regional countries and the U.S. were okay 
with, until the shift in the Bush era in 2004 and the aftermath 
of the Iraq invasion changed those calculations.
    Mr. Mast. The word model and tool has been used by several 
on this panel to describe Hezbollah. Would you say that this is 
a model in the historical context that you just gave?
    Would we say that that is something that is being layered 
upon Yemen? Would you say that this is a model that they are 
looking to play out over another 25 to 30 years--that is a 
long-term goal for Yemen so they would be on now, you know, 
multiple directions of Saudi Arabia?
    Mr. Salem. Yes, it is a model that they sort of apply in 
Iran itself. The Revolutionary Guards is not the national army. 
It is an ideological force. That model ``succeeded'' for them 
in Lebanon.
    They are certainly trying to reproduce it in Iraq but the 
central government, I think, is trying to fight back. They 
are--have already or trying to make it a part of the future in 
Syria, although Russia might not be terribly comfortable with 
that.
    Certainly, we shouldn't be comfortable with that. And they 
would--the Houthis are asking, effectively, to be like--in the 
negotiations the Houthis are saying, ``Okay, we will agree, but 
we need to be able to maintain our own private army.''
    So yes, they are trying to create that model. It must not 
be allowed to be recreated.
    Mr. Mast. My time has expired. Do you mind if I ask one 
last question?
    Ms. Ros-Lehtinen. Please, go right ahead.
    Mr. Mast. You know, you used the term ``an ideological 
force.'' Do you see them whatsoever as a colonizing force? 
[Laughter.]
    Ms. Wittes. Thank you. I don't know that I would say 
colonizing. I think that the Revolutionary--the aim of the 
Islamic Republic has been to export revolution and to gain 
influence.
    What we have seen with Hezbollah is that it wants to 
exercise veto power. It doesn't want to exercise absolute 
control. It is certainly not colonizing in the sense that it is 
extracting resources and bringing them back to the metropol.
    So I wouldn't say colonization is the model. I think it is 
really about a power that understands--Iran understands that in 
the majority Sunni region of the Middle East there are some 
natural limits on its ideological reach and its political 
reach. But it is trying to maximize its ability to shape events 
by exercising vetoes where it can.
    Mr. Salem. But if I may, I think there is a little element 
of it in their sort of sectarianization and looking at the 
region in sectarian terms and finding ways that that links to 
their projection of power--that in Iraq look at Shiites and 
Lebanon look at Shiites.
    In Syria, with the Assad regime they are actually trying to 
do ethnic cleansing and rejiggering the sort of sectarian 
geography of the country so that they have a solid core.
    In Yemen as well, the group there didn't consider 
themselves Shiites in the same way that the Iranians do but 
they are being moved in that direction and that is where the 
link to the collapse of nation states and civil war is the real 
problem--that once the state collapses people revert to their 
sectarian or communal identities and Iran steps in, says, 
``Okay, your state isn't working--I can help you.''
    So that is why I emphasize ending civil wars and standing 
up states even if they are rickety and imperfect and what not 
but they are very significant--that is a very important goal.
    Secondly, I am extremely heartened that Saudi Arabia, 
hopefully--I mean, since 1979, as was mentioned, Saudi Arabia 
fell into that game--that ``oh, the Iranians are backing 
Shiites--maybe we should back Sunnis and maybe that is a good 
way to do it.''
    I think the new leadership in Saudi Arabia is realizing 
that is bad for them, it is bad for their own societies, and it 
is bad for the region. It is not good domestic policy. It is 
not good foreign policy.
    And I think if MBS succeeds in some of the things that he's 
doing, particularly to reverse that decision that was made in 
1979 to finance and export a pretty virulent form of sort of 
Wahabbi Islam I think that is being recognized, that is of 
historic importance for the kingdom, for the Middle East, and 
for the world in ratcheting back that and helping reinforce 
nation-state identities.
    And I would also say that what he is doing in Saudi Arabia 
in terms of pushing back against radical Islam, empowering 
women, trying to build an open society, is something that many 
Iranians want and that their government is not delivering.
    So I think progress in Saudi Arabia might even cause some 
worries for the Iranians domestically whose population wants 
something quite similar to that.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Mast.
    Mr. Lieu of California is recognized.
    Mr. Lieu. Thank you, Madam Chair, for calling this hearing 
on Saudi Arabia and Lebanon. I want to thank the witnesses for 
your expertise and coming here today.
    As you know, the President has put Jared Kushner in charge 
of Middle East policy. So I have some questions for Dr. Wittes. 
Am I pronouncing that correctly?
    Are you aware if Jared Kushner has any foreign policy 
credentials?
    Ms. Wittes. He has no formal academic credentials in that 
regard, although I think some of us--yes, no formal academic 
credentials, no previous professional experience.
    Mr. Lieu. When you served in the Obama administration, did 
the President ever put someone in charge of Middle East policy 
that had no foreign policy experience or foreign policy 
credentials?
    Ms. Wittes. Not to my recollection, no, and I think that as 
all of us have been describing the intricacies of the 
relationships and history in this region, our essential 
background for effective American diplomacy, which is why it is 
so valuable to have professional diplomats with that long 
experience in the region engaged in the policy.
    Mr. Lieu. Thank you.
    Now, as you know, there are reports--actually, it is not 
even disputed by Kushner companies--that they own 666 Building 
in Manhattan and that they have a $1.2 billion debt on it, of 
which they own over half of.
    Kushner companies also does not dispute that they have been 
trying to seek cash infusions. So I am going to read you the 
first paragraph from this Bloomberg article earlier this year.
    It says, ``A few months before President Donald Trump 
encouraged Saudi Arabia and others to blockade Qatar, the real 
estate business owned by the family of his son-in-law, Jared 
Kushner, sought a substantial investment from one of the Gulf 
State countries' wealthiest and most politically influential 
figures, according to a spokesman for Kushner companies.''
    Is it your view that the Trump administration gave Saudi 
Arabia the green light to impose the economic blockade on 
Qatar?
    Ms. Wittes. I don't have any specific information on that, 
Congressman Lieu, and, frankly, I--in my experience, it would 
be surprising for the kingdom to explicitly, you know, ask for 
a green light or seek approval.
    I think what I would say is that President Trump's visit 
there in which he made crystal clear that he's not interested 
in local disputes or criticism.
    He is interested in an uncritical embrace. That sent a 
strong signal that I think affected decision-making and 
calculations across the region.
    Mr. Lieu. Thank you.
    As you know, last month Jared Kushner took an unannounced 
trip to Saudi Arabia. Is that unusual for a senior White House 
official to make an unannounced trip like that?
    Ms. Wittes. I wouldn't say it is at all unprecedented 
actually and in the context of the significant reporting around 
preparation of a U.S. proposal on Middle East peace, it would 
be a reasonable step to take.
    Mr. Lieu. So shortly after that, media reports that Chief 
of Staff Kelly was none too happy with that trip, partly 
because Saudi Arabia then started engaging in actions such as 
rounding up various folks in Saudi Arabia, recalling the prime 
minister of Lebanon, and so on.
    Again, do you have any sense of whether Jared Kushner or 
the Trump administration gave a green light or sent signals to 
Saudi Arabia to say that that was okay?
    Ms. Wittes. I have no specific information on that.
    Mr. Lieu. Do you have any knowledge of whether Jared 
Kushner asked anyone in Saudi Arabia for financing for the 666 
Building?
    Ms. Wittes. I certainly have no information on that, no.
    Mr. Lieu. Thank you.
    I would like to now move to Yemen. As you know, in Yemen 
the Saudi-led coalition has engaged in a number of air strikes.
    Reporting from Amnesty International, Human Rights Watch, 
and other organizations suggest that a number of these air 
strikes struck civilians nowhere near military targets. When I 
served on active duty in the Air Force one of my duties was to 
teach the law on conflict.
    These look like war crimes to me. Do you have any 
indication of whether there have been less war crime like 
strikes in Yemen or has the situation remained the same?
    Ms. Wittes. The question of Saudi targeting is not one I 
have followed closely. The civilian casualties from bombings 
have been significant.
    The greater threat to civilian life in Yemen today is 
starvation and disease, which is the result of the conflicts--
the inability to end this conflict.
    What I would say about the air campaign is that as far as I 
can tell it is unlikely that the Saudis are going to achieve 
much more territorially through an aerial campaign. The targets 
that they are bombing today are targets that they have bombed 
before.
    And so to achieve more gains on the ground would require 
very bloody ground warfare that I don't think the Saudis or 
their coalition partners are interested in right now.
    The way to solve this conflict is at the negotiating table. 
It is not going to be done militarily.
    Mr. Lieu. Thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Lieu.
    Mr. Suozzi. Did I do it right now?
    Mr. Suozzi. You did it right. Thank you, Madam Chairwoman.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Suozzi. One of my colleagues earlier made reference 
to--thank you so much for being here today. We appreciate all 
your expertise and your contributions to our country.
    The--one of my colleagues earlier today referenced Thomas 
Friedman's column in the New York Times on November 3rd and it 
talked about, you know, this--this version of the Arab Spring 
going on under the Saudi Arabian prince and the actions he's 
taking with the detainments and the women driving in their cars 
and everything else that is going on.
    What is your opinion of what's going on and did you--did 
you read the article--the op-ed piece by Thomas Friedman? What 
is your opinion?
    Is he--is he accurate? Is he--or is he being Pollyannaish? 
Do you have as positive a view as he does of what's going on in 
Saudi Arabia?
    Mr. Abrams. Well, I don't have as positive a view as he 
does. That situation--I thought he missed a critical point, 
which is that the Arab Spring came from the bottom up. The Arab 
Spring was in--you know, in places like Tunisia and Egypt--the 
people overthrowing----
    Mr. Suozzi. Syria also.
    Mr. Abrams. Yes. Rising up against a tyrant. That is not 
what is happening in Saudi Arabia. Saudi Arabia is top down.
    It may get substantial popular support but I think--I think 
it was Dr. Wittes who said a few minutes ago that's a question. 
This is not going to be a 1- or 2-year program.
    The crown prince calls it Saudi 2030. We are talking about 
decades here. I think they are going to need popular support 
and I think that is something that Friedman really missed. How 
do they get that popular support and maintain it over time?
    Mr. Salem. Yes, I wouldn't compare it. As Mr. Abrams said, 
the Arab Spring gets into different models of how things 
happened or succeeded or failed.
    My reading of what is happening in Saudi Arabia is that it 
is a very, very profound change. It is a top-down attempt at 
revolution--social revolution, cultural revolution, and 
economic revolution and, in a sense, political revolution as 
well.
    I think the economic side as, I think, Mr. Abrams said in 
his opening statement, had to be done and was way overdue.
    The numbers in the economy would not add up because of oil 
prices and consumption and so on. So Vision 2030 was the heart 
of trying to sort of privatize and get away from energy.
    I think on the issue of corruption that the Crown Prince is 
absolutely right in having to tackle it in a major way. 
Corruption--it would be even hard to have called it corruption 
was sort of a way of life--that money sort of flows up and is 
shared among royals in all kinds of deals. That was the way 
business was done, and his attempt to go from that to an 
economy where that is no longer the norm is absolutely 
necessary.
    Now, how he did it and in what ways, can be debated. In the 
cultural side, his stand against extremists or politicized 
Islam is incredibly necessary and incredibly important for 
Saudi Arabia and for the entire region and the world, and I 
think he has taken an incredibly bold position on that and 
extremely valuable.
    On the empowerment of women, it is not just driving--that 
is a big move and other things as well--it is that that 
direction is at least the right direction to be going in.
    And I think if this succeeds he might, at the end of the 
day, have a problem of how to empower these people he's 
empowered politically. We haven't figured that out yet.
    But I think we should be hoping that a lot of what he does 
succeeds--that yes, it is done in a regularized way and is not 
that--in a way that could eventually also encourage growth and 
investment and so on. But I think what is going on is very 
historic.
    Ms. Wittes. I will just add two quick points. One is I 
don't think that revolutionary is the appropriate word to 
apply. This is about consolidating and sustaining the Saudi 
kingdom, and in fact, the transformation that is underway is 
shifting the political base of the monarchy from this patronage 
network of royals and elites to a more populist base in the 
younger generation.
    This swift decision making, these bold moves, are popular 
and the fact that the crown prince is of this generation is 
popular. But he is--he is doing this by centralizing power in 
his own hands.
    He is doing this by marginalizing and discrediting rival 
members of the royal family and he is doing this by making a 
lot of promises to that young Saudi population that it is not 
clear he is going to be able to deliver economically, socially, 
and certainly, as Mr. Abrams pointed out, politically.
    So this is a very risky play that is about consolidation of 
power. I also think, as Dr. Salem said, it is about 
strengthening the nation-state in the face of these 
transnational forces in the region.
    The second point I'd make is about the cultural 
liberalization and the empowerment of women, and I understand 
that the driving issue is extremely symbolic and there are 
dozens of Saudi women who worked for years demanding their 
right to drive.
    But at the end of the day, the ability to drive a car has 
economic consequences. It cannot--it has important personal 
consequences but it is not transformational.
    This is a country with guardianship laws that allow Saudi 
males to treat their wives, daughters, and sisters as 
subordinate property, and until the guardianship system is 
tackled in this reform process, I, for one, am going to remain 
a bit skeptical about the reach of this liberalization.
    Mr. Suozzi. Thank you.
    So I am more than used up my time. I have a lot more to ask 
you but I enjoyed your answers and your perspective on this. I 
mean, I think it is a very positive development. There is just 
always more to be done, obviously.
    Thank you very much, Madam Chairwoman.
    Ms. Ros-Lehtinen. Very good questions and thank you for 
your answers.
    And now my good friend, Ms. Frankel from Florida. Go get 
them, tiger.
    Ms. Frankel. Thank you.
    Doctor--well, you know, I know it will be that--it will be 
the two of us here. First off, thank you all so much for being 
here.
    Well, we will see. I don't know if Mr. Suozzi is going to 
stay. Oh, Mr.--oh, Mr. Connolly.
    Mr. Suozzi. I know--I am----
    Ms. Frankel. That's right. Mr. Connolly, welcome. Thank you 
for being here. Usually I am the last one here. That's due to 
seniority or lack--there lack of.
    So thank you. You know, it is interesting because I know we 
are trying to have a very sincere intellectually discussion 
here this morning and, you know, we don't always agree but we 
do have serious discussions.
    But, you know, my chairlady and I, we are from Florida and, 
you know, there is this expression--NASA, we have a problem.
    Guess what? DC, we have a problem, and I think it is in the 
White House, I think. I think a lot of people agree. I mean, we 
have our own Cabinet members reportedly calling our President--
one called him, allegedly, a moron.
    One allegedly called him an idiot. I have seen reports on 
TV by mental health experts who think that the President has a 
serious mental health problem. In my opinion, he is a looney 
tune. I don't know. I have never--it is hard--it is hard to 
keep track.
    But I bring this--and I want to add one other thing, which 
is not apt to this conversation, but what his policies are 
doing to the women of the world are disgraceful. In cutting off 
the health to the women of the world, that is going to come 
back, I think, in so many negative ways. But I am going to not 
ruminate on that.
    One of you said today that, you know, lack of policy, a 
lack of strategy, a lack of personnel is part of the problem in 
trying to develop this Mideast or try to deal with this chaos 
that is going on.
    So I have--I do have questions from this. Today, I think it 
is, the President tweeted or retweeted the most bigoted anti-
Muslim--how do I say it politely?
    Ms. Ros-Lehtinen. Video.
    Ms. Frankel. Video venom--I was going to call it fake 
video--which has been apparently--I don't even think I should 
say what it is.
    But it supposedly emanates from Great Britain, where even 
their leaders there--one of them just said the President of the 
United States is promoting a fascist racist extremist hate 
group whose leaders have been arrested and convicted and he's 
no ally or friend of ours.
    I mean, so one question is, is the President's own behavior 
and his bullying tweets and crazy things he says, do you--do 
you think it has any effect at all in terms of trying to have 
some rational policy or strategy or whatever.
    That's number one. Number two, now, give me some hope. Is 
there anyone behind the scenes that is doing anything 
meaningful and rational that can overcome this President?
    And then my third question, which is a little bit off 
subject but I am really--since it is us girls and Gerry over 
here and Tom, you know, there has been a lot of chatter about 
this ``forced peace agreement'' between Israel and the 
Palestinians and Jared Kushner going to Saudi Arabia and Saudi 
Arabia getting the Palestinian leader Abbas and threatening him 
to accept the peace agreement.
    And I am just wondering if you have an opinion on any of 
that, whether it is real or possible. So those are my 
questions. Who wants to give it a shot?
    Ms. Wittes. Well----
    Ms. Frankel. Start with the tweets. [Laughter.]
    Ms. Wittes. Congresswoman Frankel, maybe I will start, if I 
may, with a question about the Middle East peace process and I 
suspect that my colleagues will have some things to say on that 
as well.
    But I think that in--as our partners in the region have 
confronted this common threats from Iran we have seen a lot of 
tentative outreach in different directions and the possibility 
for some new rapprochement. And so that offers hope for 
cooperation on Middle East peace.
    I would say that the agreements on Gaza to return the 
Palestinian Authority and particularly to return PA personnel 
to the borders of Gaza is an extremely significant development 
if in fact it is implemented as agreed.
    What I worry about, as I said earlier, is that our partners 
in the region have different priorities that pull them in 
different directions and so when push comes to shove, I am not 
sure we have the ingredients we need for a big Middle East 
peace deal that would enable this kind of open Arab-Israeli 
rapprochement.
    The Egyptians, who have been crucial to brokering the 
agreement on Gaza are, as you know, struggling with a fierce 
insurgency in Sinai.
    This massive terrorist attack I think will compel them to 
rethink what an open border from Gaza means for them and, 
certainly, it takes their attention away from this broader 
Middle East peace effort.
    The Jordanians and the Palestinians have their own concerns 
about preference--the Gulf's preferences with regard to Middle 
East peace and the future of the--of leadership in the 
Palestinian Authority.
    So I think that all of these tensions are coming into play 
before we even get to the question of Iran and Hamas and that 
kind of thing.
    So I just don't think that our expectations should be too 
high. I don't think that this package is an easy thing to put 
together.
    Mr. Abrams. I agree with that. I am a pessimist about the 
chances for a comprehensive peace deal. I don't appear today as 
an administration spokesman. I have done that many times in 
hearings that the chairman has held over the years.
    But I would say I think if you ask a number of governments 
in the region--Saudi, Emirati, Israeli, Egyptian--they are 
actually happier with American foreign policy than 1, 2, 3 
years ago--the previous 8 years. So I think that has to be part 
of record as well.
    Mr. Salem. Yes, I think I would agree with that, that they 
had other serious disagreements with the Obama administration, 
particularly, obviously, over Iran, but also over Egypt and 
some other things as well.
    I think, again, dealing with governments in the region, 
gauging the effects of this administration, I don't think it is 
so much the President's personality--whatever you want to 
describe it, as in a tweet here and a tweet there. I think 
there are two more structural things. One, I think they are 
happy with a lot of the elements that they have seen: Strong 
position against Iran, strong position against extremist Islam 
and so on.
    But a year into the administration I don't think they see 
the clarity of a full strategy--a lot of talk on Iran but no 
real teeth; not clear about Russia--is Russia partner of the 
Trump administration or not? A few fundamentals that are not 
clear as well: An administration where it is not clear who is 
in charge and who do you talk to.
    Secretary Tillerson doesn't seem to be on the same page 
with the President or his son-in-law on many issues. I find 
when I go to the region there is a problem of personnel--should 
we talk to Jared Kushner, should we talk to the Secretary of 
State, the Secretary of Defense?
    There is confusion about who is managing America's foreign 
policy in the Middle East and that can't be good.
    Ms. Frankel. Madam Chair, just one follow-up. On the 
question of Russia, we had a hearing I think maybe a couple 
weeks ago on some of the issues related to Russia and one of 
the experts I remember--I forget who it was--said make sure you 
just--so be cautious that you differentiate between cooperation 
and, what was it, sharing? Wait. A staff question. Between 
cooperation and coordination.
    And, basically, they said to us, you know, don't tell them 
any secrets. Don't give them anything that they might use 
against us but that--that doesn't mean you shouldn't try in the 
right times to have some cooperation.
    So I wanted to ask you this in regards to Russia. Do you 
see a role of Russia at all in how in this whole Middle East 
chaos what should--what do you think their involvement or our 
involvement should be with them, given, obviously, what's going 
on with the interference with the elections and so forth?
    Mr. Salem. Well, when it comes to the Middle East, the area 
we are talking about today, I think there are two modes of 
thinking about this.
    Some think that maybe we could work with the Russians and 
that will be separate from Iran and what Iran wants to do and 
try to create some space between Russia and Iran. In Syria, for 
example, the idea that if Russia is empowered in Syria they 
might remove Assad. They might build the army rather than the 
militias. They might help us get the Iranian proxy forces out.
    But on the other hand, the pattern that I see developing is 
that Russia has jumped on an opportunity to ally effectively 
with Iran. Both of them are anti-American forces.
    They have different colors, different ideologies, but on 
that they agree. On those, you know, they agree on that in a 
strategic way and Iran has secured dominance in the Levant.
    I mean, a lot of influence in Iraq, victory in Syria, a lot 
of influence in Lebanon, and that is a core area. And Russia 
has jumped into that in Syria, providing air cover there and 
support in the Security Council.
    So what I fear is happening is not necessarily that Russia 
is a problem for the U.S. in the Middle East because they could 
be partners in the Middle East peace and other things, but they 
have chosen to enter the Middle East with this alliance with 
Iran.
    They can't really separate from Iran. They would lose what 
they gained in Syria. So that is where our problem lies and 
hence, yes, it is really a big problem to think that the U.S. 
can work with Russia blindly in Syria or the Middle East.
    We have to be tough with them but also diplomatic and, you 
know, use all the levers to get a result that we want.
    Ms. Ros-Lehtinen. Thank you so much, Ms. Frankel.
    And now I am so pleased to yield to one of my favorite 
Members of Congress, Mr. Connolly of Virginia. Many people 
don't know that--weren't you part of the Senate staff of this 
equivalent committee on the----
    Mr. Connolly. I am impressed you know that----
    Ms. Ros-Lehtinen. Yes, I know that.
    Mr. Connolly [continuing]. And remember that. Thank you.
    Ms. Ros-Lehtinen. And he is recognized for such time as he 
may consume.
    Mr. Connolly. Well, the feelings are mutual, Madam 
Chairman, and I wish you would change your mind about leaving.
    Anyway, I can't help but observe, since Mr. Abrams decided 
to opine about unpopular Trump--I mean, Obama is with certain 
countries and how much more popular Trump is.
    Well, of course they are, because we are not pressing human 
rights. We are not holding them to account. We have seen 
authoritarian regimes rise in Egypt and in other parts of the 
region and they now know that no one's going to hold them to 
account.
    And, of course, you know, our policies with the Netanyahu 
government in Israel remain the subject of great debate and 
controversy about what's in U.S. interest and Netanyahu, of 
course, would prefer Trump over Obama.
    We will see. There is an old expression--be careful what 
you wish for. We will see how that plays out.
    But if I were those countries, as I think, Dr. Salem, you 
were just indicating, I would be worried a little bit about 
some of the policies of this administration.
    Ceding, frankly, Syria to Russia and letting the Russians 
lead the negotiations for what comes next--you're worried about 
Iranian influence? You are worried about the role of Hezbollah?
    I don't think that is a positive step for Iran or for Egypt 
and, of course, the administration compounds its problem by--
well, some senior diplomats have called dismantling the Foreign 
Service and, I think, Dr. Wittes, you talked about that in your 
testimony as well.
    Madam Chairman, I would ask unanimous consent to enter into 
the record the op-ed piece by Ryan Crocker and Nicholas Burns.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Connolly. I thank the chair.
    Mr. Abrams, you and I go back a long way. Let me ask, I 
hope, a nonpolitical question. How serious do you think it is 
that we are, as some have said, dismantling or hollowing out? 
And, for the record, Secretary Tillerson takes great exception 
to that.
    But when I look at, you know, some data, so he proposes to 
cut the Foreign Service 8,000 officers by 8 percent. He has--
well, the President has proposed a budget cut at State and 
USAID of 31 percent.
    We know that one of the results of all of that this year is 
that the number of Americans who have applied for Foreign 
Service has declined by one third--33 percent.
    We also know lots of people are headed for the exits who 
can retire. We are losing a lot of senior diplomats--a lot of 
collective wisdom about various and sundry regions of the 
world.
    Is this, from your point of view, something that is just a 
downsizing that will make us leaner and meaner and more 
effective or is this something that actually we ought to be 
concerned about in terms of our capability to project ourselves 
diplomatically, especially in this region?
    Mr. Abrams. I think it is a great concern. I would just 
take 10 seconds to say I do think there was no American human 
rights pressure on Saudi Arabia and the UAE and their 
preference for Trump over Obama does not have to do with 
American human rights pressure, and in Israel the preference is 
not just Netanyahu's. Obama had lost the confidence of the 
people of Israel left, right, and center.
    So I don't think--I don't think the--I would not associate 
myself with your opening remarks. But I would associate myself 
on these remarks.
    Mr. Connolly. I did not assume you would----
    Mr. Abrams. Yes.
    Mr. Connolly [continuing]. Because since I took direct 
issue with you, and I don't think that is true that we never 
talked about human rights with Saudi Arabia.
    I take your point, though. Perhaps what they really 
objected to was the agreement with Iran and I happen to think 
Obama has been proved right in that regard, not wrong. But----
    Mr. Abrams. On the State Department, I think, of course, 
Secretary Tillerson objects if you, you know, say to him, you 
are destroying the Foreign Service--you are deliberately 
undermining the ability to conduct diplomacy.
    But I think top-down is the wrong way to look at it. It 
should be looked at in a sense, from the point of view of the 
Department, of the Foreign Service, of the morale of the 
building because the morale of the building can be judged, not 
by the intention of those on the top but rather what is 
actually happening.
    Mr. Connolly. Yes.
    Mr. Abrams. And you have described, I think, what's 
actually happening. I have played the game almost of saying 
with a number of friends, okay, who would you choose for 
Ambassador here or Ambassador there or Assistant Secretary for 
this.
    Very often the answer is, well, so and so, but she is 
gone--so and so, but he just retired. So you are getting a 
depletion of the top ranks and we are not starting to refill at 
the bottom because of these decisions not to have entering 
classes.
    Sure, the impact of that next year is not great. But we 
need to plan for the future. We need an absolutely first rate 
global power foreign ministry 10 years from now and 25 years 
from now when those entering classes are going to be assuming 
position of responsibility.
    So I think it is--it is happening if you ask people in the 
Foreign Service, and I think it is very unfortunate.
    Mr. Connolly. Yes. If the chair would allow--Dr. Wittes, 
you looked like you were chomping at the bit to comment as 
well, and I know--I know you actually said the most important 
tool in the American policy toolbox--to contain Iran and 
restore stability in a disordered region is the tool the Trump 
administration seems most committed to destroying--our 
diplomacy. Do you want to elaborate?
    Ms. Wittes. Thank you, Congressman.
    First, I will associate myself with Elliott's comments in 
that regard entirely, and I will note that I think it is now 
more than half of our posts--our Embassies in the Middle East 
do not have a permanent Ambassador in place.
    It is--including Saudi Arabia, by the way--and although we 
have a very able team and very able charges and deputies in 
those places, it is impossible to substitute for somebody who 
is given the charge by the President of being his 
representative.
    And so in addition to the long-term institutional damage to 
our foreign ministry that Elliott was describing, I think we 
have to look at the near term problem of empty chairs and 
nobody on the other end of the phone.
    And so it is almost impossible to imagine even if the White 
House could construct a comprehensive strategy to contain Iran 
and push back this influence that we would be able to implement 
on that strategy effectively, given the range and breadth of 
vacancies that we see.
    Mr. Connolly. Yes, and I think one of the things that those 
empty chairs and phones not answered creates a vacuum that our 
adversaries know how to fill.
    The Iranians are quite aggressive. The Chinese are quite 
aggressive. The Russians, we know, are quite aggressive. And 
this is just the wrong time to have a whole bunch of empty 
chairs and phones not answered.
    But I thank you all for being here. I wish we had a little 
more time. Madam Chair, thank you so much for having the 
hearing and, Ms. Frankel, thanking--thank you for letting a guy 
ask some questions. [Laughter.]
    Ms. Ros-Lehtinen. Thank you so much, Mr. Connolly.
    Thank you to our excellent witnesses and thank you for the 
audience as well for being with us, and members of the press.
    And with that, the subcommittee is adjourned as we fly out.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]

                                     
                                   

                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
